Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




‘




Acronyms and Abbreviations
DFAS                          Defense Finance and Accounting Service
FMR                           Financial Management Regulation
GSA                           General Services Administration
IG                            Inspector General
OMB                           Office of Management and Budget
TRANSCOM                      U.S. Transportation Command
                                      INSPECTOR GENERAL
                                     DEPARTMENT OF DEFENSE
                                      400 ARMY NAVY DRIVE
                                 ARLINGTON, VIRGINIA 22202-4704



                                                                                       April 9, 2009

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                  TECHNOLOGY, AND LOGISTICS
               UNDER SECRETARY OF DEFENSE (COMPTROLLER)IDOD CHIEF
                  FINANCIAL OFFICER


SUBJECT: Report on Monitoring PowerTrack Payments for DoD Freight Transportation
         (Report No. D-2009-072)

We are providing this report for your review and comment. We considered management
comments on a draft of this report when preparing the final report and considered unsolicited
comments on the finding provided by the United States Transportation Command.

The Under Secretary of Defense for Acquisition, Technology, and Logistics did not respond to the
potential monetary benefits in the draft report. DoD Directive 7650.3 requires all issues to be
resolved promptly. We request that the Under Secretaty of Defense for Acquisition, Technology,
and Logistics provide comments by May 9,2009.

If possible, send your comments in electronic format (Adobe Acrobat file only) to Aud-
Colu@dodig.mil. Copies of your comments must have the actual signature of the authorizing
official for your organization. We are unable to accept the / Signed / symbol in place of the actual
signature. If you arrange to send classified comments electronically, you must send them over the
SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me
at (703) 601-5868 (DSN 329-5868).




                                             f~a.m~
                                             Patricia A. Marsh, CPA
                                             Assistant Inspector General
                                             Defense Business Operations
                 Report No. D-2009-072 (Project No. D2008-D000FJ-0006.001)
                                        April 9, 2009

              Results in Brief: Monitoring PowerTrack
              Payments for DoD Freight Transportation
                                                      a result, the FY 2007 Annual Financial Report
What We Did                                           did not identify PowerTrack payments as being
We determined whether DoD has established             a high-risk area.
procedures to incorporate industry-wide best
practices to minimize, identify, report, and          What We Recommend
recover improper payments for transportation          The Under Secretary of Defense for
services.                                             Acquisition, Technology, and Logistics should:
                                                         • use data mining to monitor problematic
The U.S. Transportation Command                              payments for duplicate payment
(TRANSCOM) is the single manager of the                      indicators;
DoD global transportation function. In                   • develop a pilot plan to implement
FY 2007, DoD transportation offices paid                     processes to reduce the likelihood of
freight shippers $2.3 billion using PowerTrack,              PowerTrack overpayments, identify
a U.S. Bank system DoD adopted in FY 1999 to                 potential fraud indicators, and quickly
pay electronically for freight services.                     recover overpayments; and
                                                         • maintain an agreement with the General
What We Found                                                Services Administration on delaying its
DoD internal controls over PowerTrack                        post-payment audits six months to allow
payments were not adequate. We estimated                     completion of DoD internal reviews.
DoD should have identified between
$33.9 million and $68 million in duplicate and        We recommend that the Under Secretary of
improper payments in FY 2007 for freight              Defense (Comptroller)/DoD Chief Financial
transportation. It also did not take necessary        Officer include the U.S. Transportation
steps to recover overpayments before the              Command in future improper payment surveys
General Services Administration post payment          and ensure that PowerTrack payments are
auditors recovered the funds and returned them        reported as a high-risk area in accordance
to the Treasury. These events occurred because        with Office of Management and Budget
DoD did not have processes in place to identify       Circular A-136, “Financial Reporting
likely overpayments and did not take advantage        Requirements,” June 29, 2007.
of the resources available to monitor payments,
identify overpayments, and immediately recover        Management Comments and
funds. We estimated that DoD could avoid or           our Response
recover and retain up to $307.3 million in
                                                      The Deputy Under Secretary of Defense for
overpayments over the Future Years Defense
                                                      Logistics and Materiel Readiness and the Under
Program by improving the process of
                                                      Secretary of Defense (Comptroller) agreed with
monitoring PowerTrack payments.
                                                      the recommendations. The Deputy Under
                                                      Secretary of Defense for Logistics and Materiel
Additionally, the DoD Annual Financial Report
                                                      Readiness commented on behalf of the Under
did not contain information on duplicate or
                                                      Secretary of Defense for Acquisition,
improper payments for freight transportation
                                                      Technology, and Logistics.
actually identified during payment reviews. As

                                                  i
             Report No. D-2009-072 (Project No. D2008-D000FJ-0006.001)
                                    April 9, 2009

Recommendations Table
Management                       Recommendations            No Additional Comments
                                 Requiring Comment          Required
Under Secretary of Defense for                              A.1., A.2., and A.3.
Acquisition, Technology, and
Logistics
Under Secretary of Defense                                  B.
(Comptroller)/DoD Chief
Financial Officer




                                          ii
Table of Contents

Results in Brief                                                          i

Introduction

       Objectives                                                        1
       Background                                                        1
       Review of Internal Controls                                       2

Finding A. Controls Over Monitoring PowerTrack Transportation Payments   3

       Management Comments on the Finding and Our Response               8
       Recommendations, Management Comments, and Our Response            9

Finding B. Reporting PowerTrack Overpayments                             11

       Recommendation, Management Comments, and Our Response             12

Appendices

       A. Scope and Methodology                                          13
             Prior Coverage                                              14
       B. Summary of Potential Monetary Benefits                         15

Management Comments

       Deputy Under Secretary of Defense for Logistics and
              Materiel Readiness Comments                                17
       Office of the Under Secretary of Defense (Comptroller) Comments   19
       United States Transportation Command Comments                     20
Introduction
Objectives
The audit objective was to determine whether DoD has established procedures to
incorporate industry-wide best practices to minimize, identify, report, and recover
improper payments for transportation services. This is the second in a series of audits on
DoD transportation payments using PowerTrack.

Background
The U.S. Transportation Command (TRANSCOM) is the single manager of the DoD
global transportation system. It executes its mission through three Component
commands: Air Mobility Command, Military Sealift Command, and the Military Surface
Deployment and Distribution Command. TRANSCOM reported $10.3 billion in
FY 2007 revenue. In FY 2007, TRANSCOM summary reports indicate it paid freight
shippers $2.3 billion using PowerTrack, a U.S. Bank system adopted by DoD in FY 1999
to pay electronically for freight services.

TRANSCOM and its subordinate commands provide support for all of the DoD
transportation needs. The transportation mission is especially crucial in time sensitive
scenarios, such as in times of war. For example, since September 11, 2001, the Military
Sealift Command has delivered more than 97 million square feet of combat vehicles,
equipment, and supplies to Army, Marine Corps, Air Force, and Navy warfighters
engaged in worldwide operations. In FY 2007, the Military Surface Deployment and
Distribution Command synchronized 153 vessel operations and moved more than
10 million square feet of cargo in support of Operations Iraqi Freedom and Enduring
Freedom. In addition, the Air Mobility Command moved 702,769 tons of cargo on airlift
missions in FY 2007. 1

DoD transportation offices used PowerTrack as the electronic system for paying freight
shipments. PowerTrack is an electronic payment tool that eliminates paper from the
freight payment process by automatically paying carriers and electronically billing
shippers. It collects shipment and financial data for both shippers and carriers in a single
electronic document that is used DoD-wide and is accessible over the internet to all
other interested parties. According to TRANSCOM, DoD used PowerTrack for about
52 percent of the payments related to shipments by subordinate commands during
FY 2007. The other 48 percent of the shipments involved air and sealift charters.

The PowerTrack payment process generally follows this sequence:

      •   The transportation officer receives a request to initiate a cargo movement.
      •   The Global Freight Management System, or local system, prices the shipment.


1
    According to the FY 2007 TRANSCOM Annual Report


                                               1
   •   The Global Freight Management System generates and sends an electronic billing
       to PowerTrack.
   •   The carrier enters delivery status into PowerTrack and submits price
       confirmation.
   •   The transportation officer approves payment to the carrier.
   •   U.S. Bank pays the carrier.
   •   Once a month, the transportation officer submits a summary invoice to the
       Defense Finance and Accounting Service (DFAS).
   •   DFAS remits payment to U.S. Bank.

After DFAS remits payments to U.S. Bank, the General Services Administration (GSA)
performs post-payment audits to verify the accuracy of the payments. GSA received
authority to audit Government transportation payments in 1940.

Private industry and the Government use techniques and processes, such as data mining
and Lean Six Sigma, to detect, analyze, and prevent overpayments and eliminate waste.

Data mining is an automated detection process that uses computer programs to scan
databases to detect patterns, trends, and anomalies. DFAS and transportation industry
experts use data mining in risk management or other areas of analysis to identify
overpayments. Data mining software compares two or more data fields or sets to confirm
consistent input.

Lean Six Sigma is a methodology that uses metrics and analysis to improve an
organization’s processes, practices, and performance. The ultimate goal of Lean Six
Sigma is to use data-driven decision making to optimize business capabilities by
eliminating non-value added work, focusing on customers, and improving quality.

Review of Internal Controls
We determined that an internal control weakness in DoD oversight of PowerTrack
payments existed as defined by DoD Instruction 5010.40, “Managers’ Internal Control
(MIC) Program Procedures,” January 4, 2006. DoD internal controls were not adequate.
OMB Circular A-123, “Management’s Responsibility for Internal Control,”
August 10, 2006, states that Federal agencies should take all necessary steps to ensure the
accuracy and integrity of Federal payments. DoD did not adequately monitor freight
payments to identify duplicate and improper payments before GSA post-payment audits.
Implementing Recommendations A.1., A.2., and A.3. will improve DoD oversight of
freight payments made through PowerTrack. We will provide a copy of this report to the
Under Secretary of Defense for Acquisition, Technology, and Logistics, officials
responsible for internal controls.




                                             2
A. Controls Over Monitoring PowerTrack
Transportation Payments
DoD internal controls over PowerTrack payments were not adequate. We estimated DoD
should have identified between $33.9 million and $68 million in duplicate and improper
payments in FY 2007 for freight transportation. It also did not take necessary steps to
recover overpayments before the General Service Administration post payment auditors
recovered the funds and returned them to the Treasury. These events occurred because
DoD did not have processes in place to identify likely overpayments and did not take
advantage of the resources available to monitor payments, identify overpayments, and
immediately recover funds. Unless DoD improves its monitoring process, GSA will
recover the funds through the GSA post-payment audit process and DoD will continue to
lose the funds. We estimated that DoD could avoid or reclaim up to $307.3 million in
overpayments over the Future Years Defense Program 2 by improving the process of
monitoring PowerTrack payments.

Transportation Areas at Risk for Overpayments
Past studies, audits, and investigations of transportation payments identified many
areas where PowerTrack transportation payments were vulnerable for overpayment
and fraud. In FY 2005, the Defense Finance and Accounting Service (DFAS) Office of
Internal Review coordinated and hosted the “PowerTrack/Transportation Subject Matter
Expert Conference” to identify potential indicators of fraud and abuse within
PowerTrack. The conference included data mining experts, auditors, criminal
investigators, transportation officers, PowerTrack system experts, and a representative
from U.S. Bank. The subject matter experts identified 138 potential indicators of fraud
and abuse. Of the 138 potential indicators, 52 were rated as high risk. The following
shows 10 of the vulnerable (high-risk) areas.
    1. Invoices from carrier for invalid/non-existent services.
    2. Preferential treatment given to carrier.
    3. Use of automated approval.
    4. Frequent overrides.
    5. Double/duplicate billing (same amount, date, or bill of lading) (phantom
        shipment) (shipment made via different mode than billed).
    6. Prime and subcontractor billed for same services.
    7. Multiple vendors/carriers using same billing address.
    8. Multiple vendors/carriers using same bank account.
    9. Personal use shipments.
    10. Bills to multiple Military Departments – duplicate.




2
 The Future Years Defense Program is the program and financial plan for DoD as approved by the
Secretary of Defense. The Future Years Defense Program organizes cost data and force structure over a
6-year period and provides this to Congress in conjunction with the President’s budget.


                                                   3
The following describe subsequent reviews and audits that identified other risk areas.

    •    GSA told us they identified $33.9 million in improper or duplicate payments
         during post-payment audits of DoD PowerTrack transactions in FY 2007.

    •    In FY 2007, a DoD criminal investigation resulted in a $28 million settlement
         from an air cargo company that handles shipments to Iraq and Afghanistan. 3 The
         company admitted falsifying a document to show an "on time" delivery date even
         though the company made the delivery later than the date reported.

    •    A DoD Inspector General (IG) audit found that controls over PowerTrack ocean
         freight transportation payments were inadequate to prevent duplicate payments
         and were vulnerable to fraudulent manipulation. The audit projected
         $14.1 million in refunded and non-refunded duplicate payments that occurred in
         FY 2007. 4

    •    Another DoD IG audit disclosed problems with PowerTrack transportation
         payments at Defense Distribution Depot Susquehanna. The auditors identified
         $252,000 in overpayment refunds from contractors that occurred from February
         2006 to February 2007. 5

Using Data mining Techniques to Reduce Risk of
Overpayment
DoD did not reduce its risk of overpayments by implementing data mining techniques to
identify potential duplicate or improper payments. At the time of this audit, DoD did not
have a data mining effort ongoing to monitor transportation payments.

Data mining is an automated detection process that uses computer programs to scan
databases to detect patterns, trends, and anomalies. DFAS and transportation industry
experts use data mining in risk management or other areas of analysis to identify
overpayments. Data mining compares two or more data fields or sets to confirm
consistent input.

Office of Management and Budget (OMB) Circular A-123, Appendix C, “Requirements
for Effective Measurement and Remediation of Improper Payments,” August 10, 2006,
recommends agencies, including DoD, use techniques such as data mining to identify and
recover improper payments. Although DoD used it in other areas, DoD did not use it for




3
  According to the Department of Justice, the settlement amount includes a fine of $8.8 million, restitution
of $4.4 million, a civil forfeiture claim of $7.4 million, and a civil qui tam action of $7.4 million.
4
  DoD IG Report No. D-2008-132, “Ocean Freight Transportation Payments Using PowerTrack,”
September 26, 2008.
5
  DoD IG Report No. D-2008-096, “Identification and Reporting of Improper Payments by the Defense
Logistics Agency,” May 20, 2008.


                                                      4
PowerTrack payments. If DoD implemented data mining techniques, it could minimize
the risk of undetected improper payments to transportation contractors.

DoD can use data mining techniques throughout the payment process to proactively look
for indicators of improper or duplicate payments and potentially identify duplicate or
improper payments before final payment. DoD used the recovery techniques successfully
in other areas. In particular, DFAS data mining staff have used data mining techniques to
monitor DoD payments. In addition, in the recent past, the DFAS PowerTrack Program
Management Office expressed interest in using data mining.

A primary reason DoD should immediately establish a proactive monitoring process is
that DoD has not been able to recover lost funds. DoD has relied on GSA post-payment
audits to monitor overpayments. Once GSA is involved in the post-payment process, any
funds it recovers for DoD are returned to the Treasury and are not provided to DoD again
for DoD use.

Senior GSA and DoD officials told us that the PowerTrack process includes prepayment
controls that should prevent payment problems such as those discovered during GSA
post-payment audits. DoD officials indicated that data mining could be used as an
effective tool in identifying the problem payments.

Post-Payment Audits
The Under Secretary of Defense for Acquisition, Technology, and Logistics should work
with GSA to maintain a delay of GSA post-payment audits in the transportation area.
GSA routinely performed post-payment audits of DoD PowerTrack transactions as part
of its responsibility for auditing the accuracy of all Government transportation payments.
A GSA post-payment audit is an analysis of procurement and payment documents to
identify overpayments to contractors. In 1940, the Transportation Act of 1940 as
amended, section 3726, title 31, United States Code (31 U.S.C. 3726), gave GSA
statutory authority to audit the accuracy of all Government transportation payments.
According to 31 U.S.C. 3726, GSA has the responsibility and authority to audit payments
made for transportation services for, and on behalf of, the U.S. Government. At the time
of our audit, the GSA Office of Transportation and Property Management Audit Division
performed this function after a delay of six months from date of payment.

We obtained GSA post-payment summary audit results for FY 2006 and FY 2007. The
results confirmed that the DoD transportation payment area requires DoD to use a more
proactive monitoring approach. In FY 2006, GSA completed post-payment audits of
DoD PowerTrack transactions and identified overpayments of $9.4 million. In FY 2007,
GSA identified another $33.9 million—a 260 percent increase—for a total of




                                            5
$43.3 million in PowerTrack overpayments in 2 years. 6 GSA is required to return
recovered funds, less expenses, to the Department of Treasury. As a result, DoD loses
access to the recovered funds.

Recovery audit companies indicate that GSA will identify between three and five percent
in transportation overpayments. Three recovery audit companies (vendors involved in
recovery auditing programs that provided information from their recoveries in the
transportation field) stated that by using mining techniques and process improvements
they were able to recover between 3 and 5 percent of their clients’ freight payments. 7 It
was their collective opinion that transportation payments were risky and subject to error.

DFAS post-payment audit personnel, familiar with DFAS audits of DoD-wide
payments, told us that the amount of overpayments identified and recovered through
its post-payment audits is directly related to the time elapsed since the payment was
disbursed and audited: that is, a rapidly conducted audit identifies more errors.
Paragraph 220302(d) of the DoD Financial Management Regulation (FMR), volume 10,
chapter 22, “Recovery Audit,” December 2005, indicates that it takes 180 days to
complete internal control procedures on other DoD vendor payments before recovery
audits may begin. GSA indicated that under the current process, it usually does not begin
its post-payment audits for six months. GSA told us that it is their goal to complete
PowerTrack payment audits within 60 days and that it has immediate access to
PowerTrack records. However, GSA told us they are willing to continue the 6-month
delay for DoD to perform its own review of PowerTrack transactions.

Implementing Other Process Improvements
According to the DoD Enterprise Transition Plan, DoD did not have a plan to monitor
and improve the process of paying contractors for freight shipments. In particular, it had
not engaged in a “Lean Six Sigma” program, a program that is widely used by agencies
throughout the Federal Government and in many areas of DoD.

In FY 2007, the Deputy Secretary of Defense established a project team to use
monitoring practices, such as Lean Six Sigma, throughout DoD. Lean Six Sigma is a
methodology that uses metrics and analysis to improve an organization’s processes,
practices, and performance. The ultimate goal of Lean Six Sigma is to use data-driven
decision making to optimize business capabilities by eliminating non-value added work,
focusing on customers, and improving quality.

The Deputy Under Secretary of Defense for Business Transformation produces an
Enterprise Transition Plan each year that provides details on DoD transformation
progress, including Lean Six Sigma. According to the FY 2007 Enterprise Transition
Plan, DoD was engaged in a massive business transformation effort to become a more


6
  These are summary results as provided by the Director GSA Transportation Audit Division. We did not
verify their accuracy and we did not analyze the recovered funds to determine whether the accounts were
active or expired.
7
  We did not review or verify the vendor recovery rates.


                                                   6
“nimble, adaptive organization.” The Deputy Under Secretary of Defense for Business
Transformation testified to the United States Senate Armed Services Committee on
February 7, 2008, that DoD Components have almost 20,000 active and completed Lean
Six Sigma projects. He further stated:

                 [Lean Six Sigma] is an important part of the Department’s Continuous
                 Process Improvement effort. A disciplined improvement methodology,
                 [Lean Six Sigma] has been endorsed by DoD leadership as the means
                 by which the Department will become more efficient in its operations
                 and more effective in its support of the warfighter. By focusing on
                 becoming a “lean” organization, the DoD will eliminate waste, improve
                 quality and put its resources and capital to the best use in meeting the
                 goals of the Enterprise Transition Plan.

DoD successfully implemented Lean Six Sigma across diverse business areas. For
example: 8

    •   The Naval Air Systems Command joined with Raytheon to complete a Lean Six
        Sigma project, which ultimately saved $133.5 million across the 2006 Future
        Year Defense Program and $421 million over the life of the Joint Standoff
        Weapon Block II program.

    •   The Warner Robins Air Logistics Center in Georgia won the Shingo Gold Prize
        for Excellence in Manufacturing, named after a Japanese Lean Six Sigma leader,
        after it used Lean Six Sigma principles to reduce repair times for C-5 aircraft to
        an average of 210 days from 390 days.

    •   The Army estimates that in calendar year 2007, they achieved an estimated
        savings of $1.3 billion by using continuous process improvements and Lean Six
        Sigma. 9

DoD could successfully use the Lean Six Sigma program to monitor and improve its
freight transportation payment process. We believe DoD should evaluate use of a
program, such as Lean Six Sigma, to determine how it can better monitor its high-risk
PowerTrack payment functions. Specifically, DoD should focus on highly vulnerable
areas and identify ways to reduce non-value added steps and more rapidly complete its
payment reviews, eliminate errors, and improve its freight payment quality control
process to minimize potential overpayments and fraud. We believe DoD should develop
a plan to implement a process to reduce the likelihood of PowerTrack overpayments and
to identify potential fraud indicators.




8
 As reported by DoD. We did not audit or verify these for accuracy.
9
 Paraphrased excerpt from Prepared Statement of Deputy Under Secretary of Defense for Business
Transformation before the United States Senate Armed Services Committee, February 7, 2008.


                                                    7
Estimates of Potential Returns
DoD could recover or prevent overpayments every year by using data mining techniques
and by using a program such as Lean Six Sigma to improve and monitor the payment
process.

We believe that the recovery companies’ estimate of a 3-percent error rate is conservative
and is applicable to PowerTrack freight transportation payments. We believe that
PowerTrack payments are high risk and a 3-percent recovery rate is a conservative
estimate because of the complexity and magnitude of the DoD global transportation
system. Using the 3-percent error rate, we calculated that DoD could recover or prevent
$68.280 million in overpayments from the $2.276 billion in FY 2007 PowerTrack
payments annually. We estimated that, to recover the overpayments, costs would be 25
percent of the amounts recovered. The 25 percent represents contingency fees paid to
contractors or costs incurred internally to DoD. The net potential monetary benefit could
be $51.210 million per year or $307.3 million 10 over the Future Years Defense Program
(FYs 2009 through 2014). See Appendix B for summary of potential monetary benefits.

Conclusion
We concluded that, because of the risk of overpayments and potential for fraud, DoD
should use data mining techniques to identify improper payments. It should proactively
mine the payments before GSA recovers the payments during their post-payment audit
and the funds are lost to DoD. DoD should also use a process, such as Lean Six Sigma,
to identify ways to monitor and more rapidly complete its payment reviews, eliminate
errors, and improve its quality control process to minimize potential fraud.

Management Comments on the Finding and Our
Response
U.S. Transportation Command Comments
Although not required to comment, the U.S. Transportation Command requested a minor
wording change to clarify information related to a prior audit shown in the third bullet on
page 4.

Our Response
We modified the draft report and changed “The audit identified” to “The audit projected.”




10
     The calculated amount is $307.260 million. The difference is due to rounding.


                                                      8
Recommendations, Management Comments, and Our
Response
A. We recommend that the Under Secretary of Defense for Acquisition,
Technology, and Logistics:

       1. Use data mining to monitor problematic payments for duplicate payment
indicators.
       2. Develop a pilot plan to implement a process to reduce the likelihood of
PowerTrack overpayments, identify potential fraud indicators, and quickly recover
overpayments.
       3. Maintain an agreement with the General Services Administration on
delaying its post-payment audits six months to allow DoD to complete internal
reviews.

Deputy Under Secretary of Defense for Logistics and Materiel
Readiness Comments
A representative from the Deputy Under Secretary of Defense for Logistics and Materiel
Readiness provided comments on behalf of the Under Secretary of Defense, Acquisition,
Technology, and Logistics. He agreed with the recommendations in this report. For
Recommendation A.1, he indicated that DoD would convene a meeting of oversight
personnel no later than April 30, 2009, to determine the best approach for monitoring
suspect PowerTrack payments. In response to Recommendation A.2, he partially agreed
but indicated that DoD will develop a comprehensive plan to prevent overpayments and
that the General Services Administration would be responsible for the recovery of
overpayments. DoD will complete the plan by August 31, 2009. For Recommendation
A.3, he stated that DoD will complete an agreement with the General Services
Administration by April 30, 2009.

Our Response
The Deputy Under Secretary of Defense for Logistics and Materiel Readiness comments
are responsive and meet the intent of our recommendations. Although he partially agreed
with recommendation A.2, we consider his comments responsive to the recommendation.
Specifically, he agreed to develop a comprehensive plan to target the upfront validation
services and charges before payment to the carrier. Successful implementation of his
plan will improve controls and should prevent erroneous payments that require recovery
actions by the General Services Administration. We agree that pursuit of recovering any
overpayments not detected by an improved process will continue to be a responsibility of
the General Services Administration.




                                           9
10
B. Reporting PowerTrack Overpayments
The DoD Annual Financial Report did not report duplicate or improper payments for
freight transportation. This occurred because TRANSCOM was not included as a
respondent to the annual improper payments survey. The annual survey is the current
method for providing improper payment data to the Under Secretary of Defense
(Comptroller)/DoD Chief Financial Officer for compilation in the Annual Financial
Report. As a result, in FY 2007 the amount of improper payments reported in the Annual
Financial Report did not include $33.9 million identified by GSA or the $14.1 million
identified by the DoD IG. 11 We estimate overpayments may have been as much as
$68 million in FY 2007. In addition, the FY 2007 Annual Financial Report did not
identify PowerTrack payments as being a high-risk area.

Indications of Risk
DoD functional experts from Defense Manpower Data Center and DFAS, investigators,
and auditors showed that DoD transportation payments were at high risk for
overpayments because of the complexity of DoD operations. Specifically:

     •   PowerTrack subject matter experts identified 52 high risk factors.
     •   GSA told us it identified $33.9 million in PowerTrack overpayments in FY 2007.
     •   A criminal investigation recovered a $28 million settlement from an air cargo
         company that falsely manipulated PowerTrack delivery dates. 12
     •   The DoD IG identified $14.1 million in refunded and non-refunded duplicate
         payments.
     •   The DoD IG identified $252 thousand in refunded PowerTrack payments from
         Defense Distribution Depot contractors.

DoD should report information on the recovery of PowerTrack payments in the FY 2009
DoD Annual Financial Report and show PowerTrack payments as being at high risk for
improper payments. OMB Circular A-136, “Financial Reporting Requirements,”
June 29, 2007, requires agencies to report this information.

The Under Secretary of Defense (Comptroller)/DoD Chief Financial Officer did not
include TRANSCOM in its FY 2007 improper payments survey. We concluded that,
because of the risk indicators shown above, the Under Secretary of Defense
(Comptroller)/DoD Chief Financial Officer should include TRANSCOM in future
improper payments surveys.

We estimate that the FY 2007 DoD Annual Financial Report did not show between
$33.9 million and $68 million in PowerTrack overpayments. Specifically, it did not show



11
  We did not determine whether these amounts are mutually exclusive.
12
  According to the Department of Justice, the settlement amount includes a fine of $8.8 million, restitution
of $4.4 million, a civil forfeiture claim of $7.4 million, and a civil qui tam action of $7.4 million.


                                                    11
$33.9 million in PowerTrack overpayments identified for recovery by GSA or
$14.1 million in duplicate payments identified by the DoD IG. 13 Additionally, as
discussed in Finding A page 8, we estimate that overpayments may have been as much as
$68 million of the $2.3 billion in PowerTrack freight payments made in FY 2007.

Conclusion
Recent audits and criminal investigations show that PowerTrack payments were
susceptible to error and fraud, and the Under Secretary of Defense (Comptroller)/DoD
Chief Financial Officer should report them as a high-risk area in the Annual Financial
Report. The Under Secretary of Defense (Comptroller)/DoD Chief Financial Officer
should also report any duplicate or improper payments identified for recovery in the DoD
Annual Financial Report.

Recommendation, Management Comments, and Our
Response
B. We recommend that the Under Secretary of Defense (Comptroller)/DoD Chief
Financial Officer include the U.S. Transportation Command in future improper
payment surveys and ensure that PowerTrack payments are reported as a high-risk
area in accordance with Office of Management and Budget Circular A-136,
“Financial Reporting Requirements,” June 29, 2007.

Under Secretary of Defense (Comptroller) Comments
The Acting Deputy Chief Financial Officer provided comments on behalf of the Under
Secretary Defense (Comptroller). He agreed to obtain and to report improper
transportation payment information in the FY 2009 Annual Financial Report. He stated
that his office will request the Under Secretary of Defense for Acquisition, Technology,
and Logistics provide the annual amount of improper DoD transportation payments
identified and recovered by the General Services Administration.

Our Response.
The Acting Deputy Chief Financial Officer comments are responsive and meet the intent
of our recommendation.




13
     We did not determine whether these are mutually exclusive.


                                                     12
Appendix A. Scope and Methodology
We conducted this performance audit from March 2008 through August 2008 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We determined whether DoD complied with the requirements of OMB Circular A-123,
“Management’s Responsibility for Internal Control,” August 10, 2006, and DoD FMR,
volume 10, chapter 22, “Recovery Audit,” December 2005. We reviewed past DoD IG
and Defense Logistics Agency audit reports, criminal investigation press releases,
Congressional testimony, meeting minutes, DoD reports and plans, and interviewed DoD
and GSA personnel. We determined whether DoD implemented Lean Six Sigma to
prevent overpayments and used recovery techniques to identify and recover
overpayments.

We used FY 2007 and FY 2008 PowerTrack summary data provided by TRANSCOM.
TRANSCOM provided a spreadsheet and chart showing freight payments made in
PowerTrack. According to TRANSCOM, they used a prototype data pull to compile the
summary data. TRANSCOM stated that the data is not from official records and should
not be audited. We did not verify the accuracy of the data.

GSA provided PowerTrack post-payment audit results for FY 2006 and FY 2007. As a
result, we did not estimate potential recoveries for prior years.

We obtained information on recovery rates from three recovery audit companies. We
used this information to corroborate our conclusion that DoD transportation payments are
risk prone and should be monitored for accuracy. We did not review or verify the
potential recovery rates claimed by the recovery audit companies. The DoD IG
Quantitative Methods Division approved our rationale and methodology for determining
potential monetary benefits using transportation industry estimates.

We reviewed the FY 2007 Annual Financial Report section related to improper payments
and recovery auditing. We obtained testimony records, DoD Annual Financial Reports,
DoD Regulations, and DoD Enterprise Transformation Plans from DoD and Government
internet sites. We also contacted GSA, DFAS, and TRANSCOM for information related
to reporting transportation overpayments.

Use of Computer-Processed Data
We reviewed the controls of the PowerTrack system and the testing of the PowerTrack
system performed by an independent auditor. Because of the specified procedures
performed by the independent auditor, we believe the PowerTrack computer-processed
data are reliable and, therefore, will have no affect on the results of the audit. We relied


                                             13
on management reports created by queries and compilations from PowerTrack. GSA did
not state whether it used computer processing to compile the PowerTrack post-payment
audit results.

Prior Coverage
During the last 5 years, the Department of Defense Inspector General (DoD IG) issued
two reports discussing controls over PowerTrack and improper payments. Unrestricted
DoD IG reports can be accessed at http://www.dodig.mil/audit/reports.

DoD IG
DoD IG Report No. D-2008-132, “Ocean Freight Transportation Payments Using
PowerTrack,” September 26, 2008

DoD IG Report No. D-2008-096, “Audit of Identification and Reporting of Improper
Payments by the Defense Logistics Agency,” May 20, 2008




                                          14
Appendix B. Summary of Potential Monetary
Benefits
 Recommendation
     Reference         Type of Benefit      Amount of Benefit    Account(s)
A.1., A.2., and A.3.   Cost Recovery of     $307.3 million.      Army, Navy, Air
                       improper payments    The benefit amount   Force and Defense
                       made to              will be revised as   Operations and
                       transportation       Components           Maintenance
                       contractors.         recover freight      Accounts.
                                            overpayments.




                                           15
16
Deputy Under Secretary of Defense for Logistics and
Materiel Readiness Comments




                   Click to add JPEG file




                                  17
Click to add JPEG file




               18
Office of the Under Secretary of Defense (Comptroller)
Comments




                    Click to add JPEG file




                                   19
United States Transportation Command Comments

                                                  Final Report
                                                   Reference




                  Click to add JPEG file
                                                Revised, Page 4




                                 20
